U.S. Department of                                   The Inspector General          Office of Inspector General
Transportation                                                                      Washington, DC 20590
Office of the Secretary
of Transportation

March 28, 2012



The Honorable John D. Rockefeller, IV                 The Honorable John L. Mica
Chairman                                              Chairman
Committee on Commerce, Science, and                   Committee on Transportation and
Transportation                                        Infrastructure
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

The Honorable Patty Murray                            The Honorable Tom Latham
Chairman                                              Chairman
Subcommittee on Transportation,                       Subcommittee on Transportation,
Housing and Urban Development, and                    Housing and Urban Development, and
Related Agencies                                      Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

Dear Chairmen Rockefeller, Murray, Mica, and Latham:

This report presents the results of our review of Amtrak’s 5-Year Financial Plan
for fiscal years 2012 through 2016 and its revised annual budget for fiscal year
2012. 1 This review is required by the Passenger Rail Investment and Improvement
Act of 2008 (PRIIA). 2 Overall, we found that Amtrak’s 5-Year Financial Plan
addresses most of the requirements outlined in PRIIA, but lacks some required
information, most notably regarding the company’s financial stability and past
performance. Our previous assessments also found these deficiencies in the Plans,
but, according to Amtrak officials, the company is currently addressing them. In
accordance with the company’s Strategic Plan, issued in 2011, Amtrak organized

1
    Amtrak revised its annual budget after the enactment of fiscal year 2012’s Federal appropriations law.
2
    Pub. L. No. 110-432, Div. B (Oct. 16, 2008). PRIIA authorizes funding for Amtrak through 2013, and
    requires Amtrak to annually issue a 5-year financial plan. OIG reviews each plan to determine if it
    meets requirements outlined in PRIIA Section 204(b).

J-2012-002
                                                                                                  2


the Financial Plan around new strategic goals and revised its annual budget for
fiscal year 2012 to align with the Plan. Details of our analysis are included below.


AMTRAK’S FINANCIAL PLAN LACKS REQUIRED INFORMATION
ON FINANCIAL STABILITY AND PERFORMANCE

While it includes most of PRIIA’s requirements, Amtrak’s 5-Year Financial Plan
lacks required information on the company’s overall financial stability and past
performance. These deficiencies are consistent with what we have found in our
assessments of Amtrak’s previous two Plans. PRIIA requires us to review
Amtrak’s Financial Plans to determine whether they include specific financial and
performance elements. Table 1 summarizes these elements and the current Plan’s
compliance.

Table 1. Amtrak’s Fiscal Year 2012-2016 Financial Plan
Compliance with PRIIA’s Requirements
 PRIIA Requirement                                                              Plan’s
                                                                                Compliance
 Projected revenues, expenditures, cash flow, and ridership                     Full
 Operational and capital funding requirements and expenditures and predicted    Full
 funding sources
 Estimates of long- and short-term debt and associated principal and interest   Full
 payments
 Projected capital and operating requirements, ridership, and revenue for any   Not
                                                                                           †
 new passenger service operations or service expansions                         applicable
 Capital and operating expenditures for anticipated security needs              Full
 Assessment of Amtrak’s continuing financial stability                          Partial
 Prior fiscal year and projected operating ratio, cash operating loss, cash     Partial
 operating loss per passenger, and labor productivity statistics on a route,
 business line, and corporate basis
 Prior fiscal year and projected costs and savings estimates resulting from     Partial
 reform initiatives
 Prior fiscal year and projected equipment reliability statistics               Full
 Specific measures that demonstrate measurable improvement year over year       Full
 in the financial results of Amtrak’s operations
 A statement describing methods of estimation and significant assumptions       Full
Source: PRIIA and OIG analysis of Amtrak data.
†: The Financial Plan does not indicate that Amtrak will be providing any new passenger service
operations or service expansions.




J-2012-002
                                                                                                                  3


The current Financial Plan indicates that there are risks to Amtrak’s financial
stability due to factors such as employee health care costs and volatile fuel prices,
but it does not include a comprehensive evaluation of the company’s financial
stability. For example, the Plan describes Amtrak’s human capital plan
framework, including workforce planning and talent management, but does not
provide implementation details or discuss how the framework will impact the
company’s financial stability. PRIIA explicitly calls for an assessment of
Amtrak’s continuing financial stability, and indicates the factors to consider:
anticipated Federal funding of capital and operating costs; Amtrak’s ability to
efficiently recruit, retain, and manage its workforce; and Amtrak’s ability to
effectively provide passenger rail service. The Plan does not evaluate Amtrak’s
overall financial stability incorporating the impact of these factors.

In addition, the current Financial Plan does not report prior fiscal year
performance data, including fiscal year 2011’s costs and savings resulting from
improvement initiatives, and cash operating loss and labor productivity on a route-
level basis. 3 The omission of performance data not only constitutes non-
compliance with PRIIA, but also does not allow for a comparison of the budget to
actual performance. This is an important comparison, one Amtrak itself noted by
stating that its budget numbers must be rational and defensible when compared to
actual performance.

Our assessments of Amtrak’s previous Financial Plans have revealed that the
Plans have consistently lacked required information about Amtrak’s financial
stability, actual costs and savings of reform initiatives, and cash operating loss and
labor productivity for individual routes. Amtrak officials informed us that they are
currently working on a more comprehensive assessment of the company’s
financial stability and performance data. In response to this report, Amtrak
officials stated that future financial plans will include assessments of continuing
financial stability. According to budget and finance officials, the company has
recognized the need to conduct a broader risk assessment, and has an enterprise
risk management initiative underway. However, the officials did not provide an
implementation timeline. Amtrak officials also stated that the company should be
able to include more performance data in its future Financial Plans because they
expect the company’s new data systems to be fully operational in fiscal year 2012.
However, despite the availability of more robust data, Amtrak budget officials also
informed us that they do not have a standard procedure for tracking the
performance of all reform initiatives.



3
    Although the current Plan is the first to include Amtrak’s current fiscal year budgeted and projected
    cash operating loss and labor productivity at the route level, it does not include these statistics for the
    previous fiscal year, as PRIIA requires.

J-2012-002
                                                                                  4


The Financial Plan does include other PRIIA-required components, including
figures for revenues and ridership, projections for operating losses, and
information on Key Performance Indicators. Amtrak projects revenues and
ridership to increase steadily through fiscal year 2016. The projections for
operating losses increase as well, mainly due to growing expenditures on salaries,
wages, and benefits. Amtrak projects capital spending to vary year-to-year, with
$1.1 billion budgeted in fiscal year 2012 and between $1.5 and $2.0 billion in
fiscal years 2013, 2014, 2015, and 2016. To demonstrate financial results of
Amtrak’s operations, the Financial Plan includes Key Performance Indicators
(KPI), which project that operating revenues should cover nearly 83 percent of
operating expenses in fiscal year 2012. Although PRIIA requires that the Plan
contain measures that demonstrate year-over-year improvement in the financial
results of Amtrak’s operations, the current Plan’s KPI projections for operations
do not show net improvement through fiscal year 2016.


AMTRAK DEVELOPED ITS CURRENT FINANCIAL PLAN
AROUND NEW STRATEGIC GOALS

Amtrak issued a Strategic Plan in October 2011, in response to recommendations
from the Government Accountability Office and Amtrak’s Office of Inspector
General (Amtrak OIG), and organized the current Financial Plan around its new
strategic goals. One of the goals is to improve financial performance and overall
business results, and the Plan describes related management actions, such as
establishment of business lines within the company to better manage financial
performance.

According to Amtrak officials, they are using the goals, objectives, and strategies
in the Strategic Plan as criteria for evaluating budget proposals. They stated
further that the use of these criteria has required more disciplined decision-making
and resulted in a more consistent and transparent budgeting process. Amtrak’s
prior Strategic Plan covered fiscal years 2008 through 2013, but remained in draft
form and was never formally executed. In August 2010, Amtrak OIG
recommended that Amtrak develop a strategic plan that could help the company
align organizational efforts around a single vision and focus its resources on the
programs and activities that will accomplish its mission. 4 In response, Amtrak
officials developed a more robust and comprehensive Strategic Plan with input
from across the company. It proposes corporate goals and strategies that address
issues such as finances, operations, safety, security, customer and partner
satisfaction, and environmental protection.


4
    Amtrak OIG, “Amtrak’s Strategic Planning,” E-10-01, August 17, 2010.

J-2012-002
                                                                                                   5


AMTRAK’S REVISED ANNUAL BUDGET ALIGNS WITH ITS
FINANCIAL PLAN

The revised annual budget is in line with and elaborates on the portion of the
Financial Plan for fiscal year 2012. The budget provides details about Amtrak’s
implementation of its new Strategic Plan, such as a planned reduction in force, and
new activities and initiatives, such as increased staffing on targeted long distance
routes to improve route performance.

Unlike in previous years, Amtrak’s budgeted net operating loss for fiscal year
2012 is significantly less than the amount the company received in Federal
operating support. According to the budget, $120.7 million in operating savings
are primarily from a reduced non-union workforce, 5 reduced advertising, and
reductions in usage of professional services, including outside legal counsel and
consultants. The budget also indicates that the company will use the
$120.7 million for capital investments.

We are transmitting copies of this letter to the Ranking Members of your
committees. If you have any questions, please contact me at (202) 366-1959, or
Mitchell Behm, Assistant Inspector General for Rail, Maritime and Economic
Analysis, at (202) 366-9970.

Sincerely,


Calvin L. Scovel III

cc:      Ranking Member Hutchison, Committee on Commerce, Science, and
         Transportation, United States Senate
         Ranking Member Rahall, Committee on Transportation and Infrastructure,
         United States House of Representatives
         Ranking Member Collins, Subcommittee on Transportation, Housing and
         Urban Development, and Related Agencies, Committee on Appropriations,
         United States Senate
         Ranking Member Olver, Subcommittee on Transportation, Housing and
         Urban Development, and Related Agencies, Committee on Appropriations,
         United States House of Representatives



5
    Amtrak employs over 20,000 people, more than 16,000 of whom are covered by labor agreements.

J-2012-002
